                       UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL


                                        September 26, 2002


MEMORANDUM

SUBJECT:       Federal Facility Cleanups: Improvement Needed
               In EPA Oversight of Cleanup Actions at the
               Savannah River Nuclear Facility
               Report No. 2002-P-
00014


FROM:          Carolyn Copper
               Director of Program Evaluation
               Hazardous Waste Issues
               Office of Program Evaluation


TO:            Jimmy Palmer
               Regional Administrator
               Region 4

Attached is a copy of the final report on Region 4 oversight of Department of Energy cleanups at
the Savannah River Site nuclear facility.

In accordance with EPA Order 2750, you are requested to provide a written response to the
recommendations presented in the final report by December 27, 2002. The response should
address all recommendations and include a timetable for actions not completed by the response
date. Reference to specific milestones for incomplete actions will assist in deciding whether to
close this report in our assignment tracking system.

If you or your staff have any questions regarding this report, please contact me at (202) 566-0829
or John Price, Project Manager, at (404) 562-9837.

Attachment
        Office of Inspector General
        Evaluation Report



Federal Facility Cleanups
Improvement Needed In
EPA Oversight of Cleanup Actions
at the Savannah River Nuclear Facility
Report No. No. 2002-P-00014

September 26, 2002




    Stainless steel canisters for storing high level nuclear waste after being
    combined with glass at Savannah River’s vetrification plant.
Region Covered:                             Region 4

Regional Program                                Waste Management Division,
  Office Involved:                               Federal Facilities Branch

EPA Headquarters Program                    Office of Solid Waste and Emergency Response
  Office Involved:

Report Contributors:                        Angela Bennett
                                            Carolyn Copper
                                            John Price
                                            Johnny Ross


Abbreviations

CERCLA:              Comprehensive Environmental Response, Compensation, and Liability Act
CFR:                 Code of Federal Regulations
DOD:                 Department of Defense
DOE:                 Department of Energy
EPA:                 Environmental Protection Agency
FFA:                 Federal Facility Agreement
FFRRO:               Federal Facilities Restoration and Reuse Office
FTE:                 Full-Time Equivalent
NCP:                 National Contingency Plan
NPL:                 National Priorities List
OIG:                 Office of Inspector General
ORWBG:               Old Radioactive Waste Burial Ground
OSWER:               Office of Solid Waste and Emergency Response
PREScore:            Preliminary Ranking Evaluation Score
RCRA:          Resource Conservation and Recovery Act
ROD:                 Record of Decision
SARA:                Superfund Amendment and Reauthorization Act
SRS:                 Savannah River Site


            (Source of photo on cover: SRS Environmental Report for 2000, Summary)
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                  OFFICE OF INSPECTOR GENERAL
                         SOUTHERN AUDIT AND EVALUATION RESOURCE CENTER
                                 61 FORSYTH STREET, ROOM 16T70
                                        ATLANTA, GA 30303
                                           (404) 562-9830
                                         (404) 562-9828 Fax




                                       September 26, 2002

MEMORANDUM

SUBJECT:      Federal Facility Cleanups: Improvement Needed
              In EPA Oversight of Cleanup Actions at the
              Savannah River Nuclear Facility
              Report No. 2002-P-00014


FROM:         John A. Price
              Project Manager


TO:           Jimmy Palmer
              Regional Administrator
              Region 4

Attached is our final report on the Environmental Protection Agency’s (EPA) oversight of
Department of Energy (DOE) cleanup actions at the Savannah River Site (SRS) nuclear facility.
The objectives of our evaluation were to determine whether (1) the SRS Federal Facility
Agreement (FFA) cleanup requirements and related cleanup actions were consistent with
CERCLA and planned use for SRS sites, (2) EPA Region 4’s oversight of cleanup activities for
SRS was effective in achieving compliance with the Comprehensive Environmental Response,
Compensation, and Liability Act (CERCLA) and FFA requirements; and (3) DOE’s compliance
with CERCLA and FFA requirements was adversely affected by funding limitations.

The report contains findings that describe problems the Office of Inspector General (OIG) has
identified and the corrective actions the OIG recommends. This report represents the opinion of
the OIG and the findings contained in this report do not necessarily represent the final EPA
position. Final determinations on matters in this report will be made by EPA managers in
accordance with established audit resolution procedures.
ACTION REQUIRED

On August 8, 2002, we issued a draft report to you and received your response on September 11,
2002. Your response indicated that you generally concurred with the report’s findings and
recommendations. Your response included specific, as well as broad, potential actions that may
be taken in response to the recommendations. Specific corrective actions which address all of the
recommendations and milestones for completion of planned actions will be needed to close the
final report.

In accordance with EPA Order 2750, you, as the primary action official, are required to provide
this office with a written response within 90 days of the final report date. The response should
address all recommendations. For corrective actions planned but not completed by the response
date, please describe the actions that are on-going and provide a timetable for completion.
Reference to specific milestones for these actions will assist in deciding whether to close this
report in our assignment tracking system.

We have no objection to the release of this report to the public. Should you or your staff have
any questions, please have them contact me or Angela Bennett at (404) 562-9830.

Attachment
                       Executive Summary
Introduction

             The Comprehensive Environmental Response, Compensation, and Liability Act
             (CERCLA, or Superfund) gives the Environmental Protection Agency (EPA)
             authority and oversight responsibility for the cleanup of hazardous waste sites
             owned and operated by other federal agencies. Department of Energy (DOE)
             facilities represent some of the most contaminated federal facilities. As a result of
             preliminary research at the Hanford facility in Washington State, the OIG decided
             to review remedial actions and related EPA oversight at other selected DOE
             facilities. The Savannah River Site (SRS), a Superfund site near Aiken, South
             Carolina, was selected for review primarily because the facility had the second
             highest estimated long-term CERCLA cleanup costs of all DOE facilities
             ($2 billion to $4.4 billion).

Objectives

             The objectives for this evaluation were to determine whether:

             •   SRS Federal Facility Agreement (FFA) cleanup requirements and related
                 cleanup actions were consistent with CERCLA and planned use for SRS sites;

             •   EPA Region 4’s oversight of cleanup activities for SRS was effective in
                 achieving compliance with CERCLA and FFA requirements; and

             •   DOE’s compliance with CERCLA and FFA requirements was adversely
                 affected by funding limitations.

Results in Brief

             FFA cleanup requirements were consistent with CERCLA and the National
             Contingency Plan, and did not provide any exceptions to the requirements.
             Further, proposed remedies under the FFA generally complied with applicable
             requirements. We noted that, to increase efficiency and effectiveness, DOE and
             EPA Region 4 had developed processing protocols for FFA primary documents
             and established a core team to scope remedial investigations and develop cleanup
             alternatives and strategies.

             However, we found that Region 4 oversight did not ensure that DOE prioritized
             SRS cleanups based on potential risks to human health and the environment. Over
             41 percent of the sites/operable units on SRS’s 2002 list of operable units (sites)

                                                                         Report No. 2002-P-00014
                                                i
         that require further cleanup had not been scored for human health and
         environmental risk. Also, high risk sites had not been prioritized for cleanup while
         many low scoring sites received substantial attention. While guidance indicates
         that risk should be the primary factor in establishing priorities, SRS instead placed
         an emphasis on internal goals. Further, our review of Region 4 oversight disclosed
         that:

         •   Due to Region 4 personnel shortages, remedial actions at SRS sites have been
             delayed because of late Region 4 responses to DOE primary cleanup decision
             documents. Regional comments were overdue by as much as a year, and late
             EPA responses delayed cleanups by 8 months or more. For 2002, DOE
             estimated that late Region 4 responses and related cleanup delays will cost
             DOE approximately $2.7 million.

         •   Region 4 did not properly review and comment on the last official DOE five-
             year review of SRS remedial actions, issued in 1997, to ensure that the review
             properly documented the continued protectiveness and compliance of the
             remedial actions. Further, the 2002 review report omitted certain remedial
             actions from the five-year review process.

         •   The SRS FFA does not: (1) acknowledge that DOE, rather than EPA,
             performs five-year reviews; and (2) require EPA review and approval of DOE
             five-year review reports. Further, the FFA does not provide EPA with the
             authority to dispute or otherwise resolve inadequate site evaluations.

         We also found that DOE’s remedial cleanup funding level for the SRS may not be
         sufficient to maintain the current level of effort and provide expeditious cleanups.
         Increasing costs for long-term response actions will continue to erode funding.

Recommendations

         We made various recommendations to the Region 4 Administrator to address the
         issues noted, including establishing improved oversight procedures and ensuring
         that there is sufficient Region 4 staff. Further, we made recommendations to
         improve the five-year review and site evaluation processes, and to assist Region 4
         in determining whether DOE funding levels are adequate.

Agency Comments and OIG Evaluation

         Region 4 generally concurred with the OIG’s findings and recommendations and
         included planned or possible actions that the Region may take in response to the
         recommendations. Some of the proposed actions were broader in scope than the
         report’s recommendations. To resolve and close this report, the Region needs to
         provide specific actions planned or taken for each recommendation in the final
         report, along with milestones for completion of planned actions.


                                                                     Report No. 2002-P-00014
                                           ii
                                  Table of Contents

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i



Chapters

         1        Introduction         ............................................                                      1


         2        FFA Requirements Consistent With CERCLA . . . . . . . . . . . . . . . . .                              5

         3        Relative Risk to Human Health and Environment
                  Not a Primary Factor in Prioritizing Cleanup Actions . . . . . . . . . . .                             9

         4        Insufficient Region 4 Oversight Causing Delays and Potential
                  Impacts to Human Health and the Environment . . . . . . . . . . . . . . . . 19

         5        Improved Procedures and FFA Modifications Needed for Effective
                  Oversight of Five-Year Reviews and Site Evaluations . . . . . . . . . . . 25

         6        DOE Level of Funding May Not Be Sufficient . . . . . . . . . . . . . . . . . . 31


Appendices
         1        Details on Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . 35

         2        Prior Reports on Federal Facility Cleanups . . . . . . . . . . . . . . . . . . . 37

         3        Records of Decision Issued Under SRS FFA . . . . . . . . . . . . . . . . . . 39

         4        Agency Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 41

         5        Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47




                                                                                           Report No. 2002-P-00014
                                                            iii
                                      Tables

3-1:   Range of PREScore Values for Sites with
       Remedial Actions . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

3-2:   Range of PREScore Values for 26 Low Risk Sites . . . . . . . 12

3-3:   Cleanup Activity and Status for Highest Risk
       Operable Units . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

3-4:   H and F Areas and Burial Grounds - Percent of Monitoring
       Wells Above EPA’s Maximum Contaminant Level . . . . . . . 13

4-1:   Late Region 4 Responses to SRS
       Primary Documents . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20




                                                                               Report No. 2002-P-00014
                                           iv
                                Chapter 1
                                 Introduction
Purpose

          The Office of Inspector General (OIG) initiated this evaluation based on concerns
          related to certain remedial actions at the Department of Energy (DOE) Hanford
          facility, near Richland, Washington, and Environmental Protection Agency (EPA)
          oversight. As a result of preliminary research at Hanford, OIG decided to review
          remedial actions and related EPA oversight at other selected DOE facilities. The
          Savannah River Site (SRS), a Superfund site near Aiken, South Carolina, was
          selected for review primarily because the facility had the second highest estimated
          long-term cleanup costs of all DOE facilities.

          The specific objectives of our evaluation were to determine whether:

          •   The Federal Facility Agreement (FFA) cleanup requirements and related
              cleanup actions were consistent with the Comprehensive Environmental
              Response, Compensation, and Liability Act (CERCLA) and planned use for
              SRS sites.

          •   Region 4’s oversight of cleanup activities for SRS was effective in achieving
              compliance with CERCLA and FFA requirements.

          •   DOE’s compliance with CERCLA and FFA requirements was adversely
              affected by funding limitations.

Background

          DOE Responsibility

          Over the past five decades, DOE and its predecessors were responsible for the
          research, development, testing, and production of nuclear weapons and a variety of
          nuclear-related research projects. These activities created significant amounts of
          hazardous chemical and radioactive wastes and contamination at DOE sites.

          In 1980, CERCLA, also referred to as “Superfund,” provided EPA with
          enforcement authority for cleaning up abandoned/inactive contaminated waste
          sites. Section 120 of CERCLA provided EPA with specific regulatory
          enforcement and oversight authority for the cleanup of hazardous waste sites
          owned by other federal agencies, such as DOE. The National Contingency
          Plan (NCP) in 40 Code of Federal Regulations (CFR) Part 300 establishes the


                                                                     Report No. 2002-P-00014
                                           1
               requirements for all CERCLA cleanup actions, to include federal facility cleanups.

               The DOE Environmental Management Program is currently conducting cleanup
               activities at 53 of its sites to bring them into compliance with federal and State
               environmental laws and regulations. In 1998, total life cycle cleanup costs for
               these sites were estimated by DOE at $147 billion. More recently, DOE has
               estimated total life cycle cleanup costs at $220 billion, which DOE acknowledges
               could easily increase to more than $300 billion. Only about one-third of the
               Environmental Management Program budget is currently going toward actual
               cleanup and risk reduction. The remainder is spent on maintenance, fixed costs,
               and other activities required to support safety and security. These life cycle costs
               include much more than the cleanup of hazardous waste under Superfund. At the
               SRS, while DOE estimated the total life cycle cleanup costs to be $29.7 billion,
               estimated costs for CERCLA-regulated cleanups ranged from $2 billion to 4.4
               billion of that amount.

               Savannah River Site

               The SRS has been in operation for about 52 years and encompasses about
               310 square miles. The facility is located on the South Carolina and Georgia
               border, near Augusta, Georgia. The Savannah River, which forms the boundary
               between Georgia and South Carolina, runs about 35 miles along the southwestern
               boundary of the site. This river and underlying groundwater is a drinking water
               source for the SRS and other communities in Georgia and South Carolina.

               The SRS was established in 1950 to produce special radioactive isotopes for
               nuclear weapons (such as plutonium-239 and tritium). In addition, SRS produced
                           other special isotopes to support research in nuclear medicine, space
                           exploration, and commercial applications (such as californium-252,
                           plutonium-238, and americium-241). The SRS includes nuclear
                           reactors, a fuel and target fabrication plant, two chemical separations
                           plants, the Defense Waste Processing Facility, the Savannah River
                           Laboratory, and support operations. SRS generates a variety of
                           radioactive, non-radioactive, and mixed (radioactive and hazardous)
                           wastes. SRS waste management practices (past and present) include
                           the use of seepage basins for liquids, pits and piles for solids, tanks
                           for high-level radioactive mixed wastes, and landfills for low-level
                           radioactive wastes. Federal and contractor staff at SRS totaled more
                           than 13,000 employees, as of December 2001. A map of the SRS
                           showing principal areas of contamination is shown on next page.
Figure 1: Weapons-grade
plutonium stored at SRS.
(Source: DOE SRS web site.)




                                                                           Report No. 2002-P-00014
                                                 2
Figure 2: SRS Map showing major areas of contamination. (Source: SRS Environmental Report for 2000, Summary)



                  On November 21, 1989, EPA placed the SRS on the Superfund National Priorities
                  List (NPL). CERCLA requires that each federal agency with a facility on the NPL
                  enter into an interagency agreement with EPA for the expeditious completion of all
                  necessary remedial action at the facility. The SRS FFA between EPA, DOE and
                  the South Carolina Department of Health and Environmental Control (the State)
                  became effective on August 16, 1993, although CERCLA cleanup activities under
                  the FFA had already been initiated by DOE on some sites in 1992. The SRS FFA
                  actually covers numerous operable units (generally separate sites)1, of which 84
                  have been designated by EPA as CERCLA operable units. The FFA generally


         1
            For purposes of this report, the terms “site” and “operable unit” are used interchangeably and refer to
specific areas of contamination at SRS that have been listed for cleanup actions.

                                                                                        Report No. 2002-P-00014
                                                          3
          provides the statutory, regulatory, and policy requirements for remedial cleanups;
          the roles and responsibilities of each party to the agreement; the scope of work to
          be accomplished; and the milestones to be met. The FFA also represents a
          compliance agreement between EPA and the DOE with enforceable milestones.
          Penalties can be assessed against DOE for noncompliance with FFA requirements
          and enforceable milestones.

          EPA Oversight

          The Federal Facilities Branch within EPA Region 4’s Waste Management Division
          is principally responsible for oversight and implementation of the SRS FFA. The
          Federal Facilities Restoration and Reuse Office within EPA’s Office of Solid
          Waste and Emergency Response (OSWER) is responsible for EPA’s federal
          facility oversight policies and provides support to regional oversight programs.

Scope and Methodology

          This evaluation was performed in accordance with the Government Auditing
          Standards, issued by the Comptroller General of the United States. We assessed
          management controls and compliance with applicable laws and regulations.
          Control weaknesses and recommended corrective actions are identified in this
          report. We did not identify any instances of noncompliance with statutory or
          regulatory requirements.

          The evaluation fieldwork was primarily performed at Region 4 in Atlanta, Georgia;
          DOE SRS near Aiken, South Carolina; and the South Carolina Department of
          Health and Environmental Control in Columbia, South Carolina. The evaluation
          included a review of the FFA and related CERCLA remedial activities from June
          1992 through December 2001. Although the FFA was not effective until August
          1993, SRS initiated three remedial actions in June 1992 under the proposed FFA.

          See Appendix 1 for further details concerning the audit scope and methodology.

Prior Coverage

          This is the OIG’s first evaluation of Region 4’s oversight of DOE cleanup actions
          at the SRS. Similar evaluations have been conducted at DOE’s facilities in
          Richland, Washington, and Oak Ridge, Tennessee. The EPA OIG, the DOE OIG
          and program management, and the General Accounting Office have performed
          numerous reviews directly or indirectly related to federal facility hazardous waste
          cleanups. See Appendix 2 for a list of reports directly or indirectly related to this
          evaluation.




                                                                      Report No. 2002-P-00014
                                            4
                                Chapter 2
     FFA Requirements Consistent With CERCLA

          FFA cleanup requirements were consistent with CERCLA and 40 CFR Part 300
          (the NCP). The SRS FFA did not provide any exceptions to CERCLA and NCP
          requirements. In addition, analyses of proposed remedies by Region 4 and the
          State agency indicated that remedies approved under the FFA generally complied
          with the NCP and applicable federal and State requirements or needed waivers
          were obtained. To increase the efficiency and effectiveness of remedial actions and
          EPA oversight, DOE SRS and Region 4 developed processing protocols for FFA
          primary documents and established a core team to scope remedial investigations
          and develop cleanup alternatives and strategies.

CERCLA and NCP Established Requirements

          CERCLA established EPA’s hazardous substance release reporting and cleanup
          program, and the NCP sets forth the process and regulations for conducting
          Superfund cleanup actions. The NCP provides that a remedy shall be selected
          based on whether it provides:

          •   Overall protection of human health and the environment.
          •   Compliance with Applicable or Relevant and Appropriate Requirements.
          •   Long-term effectiveness and permanence.
          •   Reduction of toxicity, mobility, or volume through treatment.
          •   Implementability (including technical feasibility).
          •   Cost effectiveness.

SRS Remedial Actions Generally Addressed Containment or Control

          Of the 41 remedial actions approved since the FFA became effective in 1993,
          32 represented source control and containment-type remedies. The remaining nine
          remedies involved excavation and off-site disposal of contaminated media or
          treatment of groundwater for organic compounds and metals. These remedies
          generally represented proven cleanup techniques used by EPA and responsible
          parties on other Superfund sites. Basins generally required dewatering with burial
          of contaminated sediments and surrounding soil in the basins with a low
          permeability soil or clay cover. Buried wastes were sometimes grouted or
          stabilized to further reduce contaminant mobility and add permanence to the
          remedy. Treatments included soil vapor extraction, air stripping, and burial of
          hazardous wastes on-site. The cleanup goals/levels for remedial actions were
          consistent with requirements and the planned use of the land involved. The future

                                                                    Report No. 2002-P-00014
                                           5
                                                    use for most of the CERCLA operable units has been
                                                    restricted to industrial use or designated to remain in
                                                    federal control for perpetuity. Since many remedial
                                                    actions required burial of hazardous wastes on-site, the
                                                    remedies included institutional controls to preclude human
                                                    and ecological exposure to the contaminants.

                                                    SRS currently has 84 CERCLA operable units under the
  Figure 3: In-situ stabilization (grouting) of K   FFA. Of the 41 remedial actions issued since FFA’s
  Reactor Seepage Basin (Source: SRS 2001
  Annual Performance Report)
                                                    inception to implement remedies, 13 were interim and 28
                                                    were final. Refer to Appendix 3 for list of remedial
                                                    actions.

Region 4 and SRS Took Actions to Ensure Compliance

                  To ensure compliance and reduce revisions to primary decision documents (such
                  as Records of Decision [ROD] and Remedial Investigations/Feasibility Studies),
                  Region 4 and the SRS developed protocols for each document. The protocols
                  (“Environmental Restoration Documents Handbook”) were issued in 1999. These
                  protocols helped assure that documents issued by SRS contained all of the
                  information needed to support the cleanup decisions and remedy development and
                  selection. Another objective was to reduce the number of revisions required
                  before the documents were acceptable to all parties for issuance/publication.
                  According to the SRS lead Remedial Project Manager and DOE officials, the
                  protocols substantially reduced revisions to primary documents and provided for
                  more timely issuance of cleanup decisions.

                 In addition, Region 4 and SRS established a core team process for critical
                 decisions on scoping remedial investigations and developing remedial alternatives.
                                                       The core team consists of representatives from
                                                       Region 4, the State, and SRS. Because the team
                                                       is extensively involved in the scoping of remedial
                                                       activities and development of cleanup decisions,
                                                       draft primary documents generally reflect
                                                       decisions already agreed upon by the three
                                                       parties to the FFA. The core team concept may
                                                       substantially reduce the cost of remedial actions
                                                       in some cases. For example, the team
                                                       accelerated completion of the Remedial
                                                       Investigation/ Feasibility Study for one operable
                                                       unit by 2 years and developed a cleanup proposal
                                                       for consolidating excavated contaminated soil
 Figure 4: SRS dynamic underground stripping plant for and related wastes within the unit. This is
 removing solvents from groundwater. (Source: SRS 2001
 Annual Performance Report.)                           expected to save $5 million over other cleanup
                                                       alternatives.

                                                                                     Report No. 2002-P-00014
                                                            6
         Processes and procedures developed by Region 4 and the SRS to ensure the
         consistency and cost effectiveness of remedial cleanup operations at SRS should be
         evaluated for possible use in performing oversight at other federal facilities.

Conclusion

         The FFA requirements for SRS are consistent with CERCLA. In addition, based
         on Region 4 documentation and comments by Region 4, DOE, and the State, the
         remedies for contaminated media at SRS were selected based on realistic
         expectations that such remedies would meet the requirements of CERCLA and the
         NCP for the specific media addressed in the remedy. Whether the remedies will
         ultimately meet remedial goals and objectives and, therefore, provide the
         protectiveness to human health and the environment as set forth in the applicable
         RODs can only be determined over the long term. Thus far, five-year reviews of
         SRS remedial actions have indicated that completed actions continue to meet
         remedial goals and provide adequate protection to human health and the
         environment.

Recommendation

         We recommend that the Region 4 Administrator:

             2-1. Evaluate potential benefits of using the SRS primary document protocols
                  and core team process for oversight of cleanups at other federal facilities.

Agency Comments and OIG Evaluation

         Region 4 agreed with the recommendation and indicated that the core team
         approach had been implemented for Region 4's oversight of the Department of
         Defense’s Base Realignments and Closures and active military bases and facilities.
         The Region also signed an agreement in June 2002 with DOE and the Tennessee
         Department of Environment and Conservation that includes, in part,
         implementation of core team processes at DOE’s Oak Ridge Reservation.




                                                                       Report No. 2002-P-00014
                                             7
    Report No. 2002-P-00014
8
                                         Chapter 3
   Relative Risk to Human Health and Environment
  Not a Primary Factor in Prioritizing Cleanup Actions
                Although the FFA requires that DOE prioritize cleanups based on potential risks to
                human health and the environment, Region 4 did not ensure that SRS did so. In
                fact, over 41 percent (51 of 124) of the sites on SRS’s 2002 list of operable units
                that require further cleanup had not been scored as to human health and
                environmental risks. Also, high risk operable units had not been sufficiently
                prioritized for cleanup while many low scoring sites received attention and
                resources. Further, all stakeholders were not sufficiently involved in the
                methodology DOE used to prioritize cleanups and how this methodology related
                to the risk-based approach in the FFA. The FFA, interagency policy, and DOE
                management note that reduction of relative risk to human health and environment
                should be the primary factor in establishing cleanup priorities. However, SRS
                placed an emphasis on internal program goals rather than consistently addressing
                high risk sites. DOE’s recent review of its Environmental Management Program
                acknowledged that the cleanup program, as a whole, lacked a comprehensive,
                coherent, technically supported process for prioritizing and reducing risk to
                workers, the public, and the environment2. In addition, a recent General
                Accounting Office report indicated that SRS’s process for allocating resources to
                cleanups did not adequately allow for the consideration of serious risks to human
                health and the environment3.

Policies and Agreements Emphasize Risk
as Basis for Cleanup Priority

                EPA’s policy on establishing cleanup priorities at federal facilities is in Chapter 5,
                Funding and Priority Setting, Final Report of the Federal Facilities Environmental
                Restoration Dialogue Committee: Consensus Principles and Recommendations
                for Improving Federal Facility Cleanup, issued April 1996. This policy provides
                that while factors other than risk warrant consideration in setting cleanup
                priorities, risk to human health and the environment is an all important factor that
                should be a primary consideration in setting environmental cleanup priorities at
                federal facilities. The policy further emphasizes that the priority setting should


        2
           DOE Report, A Review of the Environmental Management Program (a.k.a. Top to Bottom Review),
issued February 4, 2002.

        3
          General Accounting Office report, Waste Cleanup, Status and Implications of DOE’s Compliance
Agreements, GAO-02-567, issued May 2002.

                                                                                Report No. 2002-P-00014
                                                     9
          involve all stakeholders – including the general public and local communities – and
          the process used to establish priorities should be transparent to all interested
          parties.

          The SRS FFA provides requirements for scoping work priorities in Section XIX,
          and Appendix F (Prioritization of Environmental Restoration Tasks). These
          procedures are to be used to prioritize sites. The DOE each year is to submit a
          listing of the sites, according to priority, to EPA and the South Carolina
          Department of Health and Environmental Control, for review and comment.

          EPA’s Hazard Ranking System (30 CFR Part 300, Appendix A) is the principal
          mechanism for ranking potential adverse effects on the environment and relative
          potential human health risks attributable to CERCLA sites. The comprehensive
          Preliminary Ranking Evaluation Score (“PREScore”) computer program, based on
          the Hazard Ranking System criteria, provides a ranking system for work activities
          at each site. The SRS FFA, Section XIX, Appendix F, indicates the PREScore
          program is to be used to rank SRS work activities.

Cleanup Priority Based On DOE Internal Goals

          Based on our review of SRS cleanup actions, work plans, and related
          documentation, it was not clear that relative risk was the primary factor in
          prioritizing sites for remediation. Further, there was no clear, consistent SRS
          methodology for prioritizing remedial cleanups.

          DOE managers we spoke to acknowledged that PREScore was not the primary
          factor in prioritizing site cleanups in annual and future work plans. Rather,
          officials indicated internal goals included completed cleanups per year which
          required DOE to focus resources on lower risk sites to meet these goals. DOE
          managers indicated that annual and future work plans were negotiated between
          DOE, EPA, and the State. However, DOE staff said they decide what projects
          and related sites are listed in individual work plans, and the negotiations with EPA
          and the State normally only involve the number of each type of cleanup action in
          the plans and the milestone dates.

          We found that from fiscal 1996 to 2002, SRS discontinued scoring and ranking
          CERCLA operable units listed in the FAA’s Appendix C. The fiscal 1996
          Appendix contained 86 operable units with 79 units sorted on a PREScore value.
          While the fiscal 2002 Appendix listed 124 operable units, 73 (59 percent) had a
          PREScore value and 51 (41 percent) did not. Although this list did not comply
          with FFA requirements, Region 4 approved the fiscal 2002 Appendix C on January
          10, 2002. The OIG requested an explanation from DOE as to why all operable
          units had not been evaluated using PREScore, but DOE did not provide an
          explanation.

                                                                     Report No. 2002-P-00014
                                           10
Low Risk Sites Received Attention and Resources

          Use of PREScore to prioritize cleanups should have focused DOE’s effort and
          resources on sites with the highest potential risks. EPA defines NPL sites or high
          risk sites as sites with a PREScore that exceeds 28.5. However, we found that
          many low risk sites (sites with a score of less 28.5 ) received attention and
          resources. The 41 remedial actions approved since FFA inception were for sites
          with scores as shown in Table 3-1 below.

                            Table 3-1: Range of PREScore Values for Sites
                                        With Remedial Actions
                                                                 No. of
                                   PREScore Value            Remedial Actions

                             No Score                                   5

                             Less than 10                              17

                             Between 10 and 20                          5

                             Between 20 and 28.5                        6

                             In excess of 28.5                          8

                                 Total                                 41


          Further, over 51.5 percent of estimated remedy construction costs have been for
          sites with scores less than 28.5. Of the $58.2 million in estimated construction
          costs (where available) reflected in remedial action decisions, $28.3 million was
          estimated as remedy construction costs for NPL caliber sites (scores in excess of
          28.5) versus over $30 million for the remaining, less contaminated sites.

          Of the 41 remedial actions mentioned above, 20 (49 percent) indicated that
          remedial investigations found no significant contamination existed and, therefore,
          no substantial cleanup actions were required. Of these 20 remedial actions, nearly
          all (15) required no further action while the remaining 5 only required institutional
          controls, natural attenuation, and/or groundwater monitoring. These 20 remedial
          actions involved 26 sites that were generally scored as low risk by PREScore ( a
          score less than 28.5). As stated above, a site with a PREScore value in excess of
          28.5 represents an NPL-caliber site and thus high risk. However, of the 26 sites,
          only 1 exceeded 28.5, as shown in Table 3-2 below:




                                                                      Report No. 2002-P-00014
                                            11
                                          Table 3-2: Range of PREScore Values
                                                  for 26 Low Risk Sites

                                                                           No. of
                                            PREScore Value                SRS Sites

                                      Zero (0)                                  3

                                      Less than 10                              9

                                      Between 10 and 21                        10

                                      No score available                        3

                                      In excess of 28.5                         1

                                          Total                                26


Highly Contaminated Sites Continued to Release Hazardous
Substances

                 While low risk sites were addressed, highly contaminated sites continued to release
                 hazardous substances into SRS groundwater and watersheds. The SRS F and H
                 areas and nearby burial grounds included some of the most contaminated SRS
                 operable units, per PREScore. These areas are adjacent to each other near the
                 center of the SRS, and contain three of the highest risk CERCLA operable units.
                 However, only one of these three units (Old Radioactive Waste Burial Ground -
                 ORWBG) had received a remedial action as of December 2001, and this action
                 was only an interim soil cover over part of the unit. At these three sites, the soil
                 and groundwater are highly contaminated with radionuclides (especially tritium
                 and cesium), nitrates, and metals. Tritium and cesium are considered carcinogens,
                 mutagens, and teratogens, and have been linked to developmental and reproductive
                 problems and genetic abnormalities4. Table 3-3 below shows the activity and
                 status of these operable units as of December 2001:




        4
            EPA Public Health Statement, Essential Information about Certain Hazardous Substances in Savannah
River Fish, dated May 1997. Information in this publication was compiled from documents from the National
Institutes of Health and the Agency for Toxic Substances and Disease Registry.

                                                                                    Report No. 2002-P-00014
                                                     12
                            Table 3-3: Cleanup Activity and Status for Highest Risk Operable Units

                                                                                                  Remedial
                                        Remedial        Remedial       Feasibility                  Actions
                                      Investigation   Investigation      Study                     Initiated/
                  Operable Unit         Field Start     Complete       Complete        RODs       Completed

                                                         Workplan                     03/01/96   Interim/Partial
                  ORWBG                   1995        Approved 2001,   In-process     09/14/01     Soil Cover
                                                        In-process

                  H-Area                06/30/94       March 2001      In-process      None          None
                  Retention Basin

                  H-Area Tank                            Workplan
                  Farm                  08/08/93      Approved 2001,      NA           None          None
                  Groundwater                           In-process


                According to a 1994 DOE report, SRS had experienced the highest tritium
                emissions of any DOE facility. Streams and related watersheds down gradient of
                the H-Area and burial ground sites, shown in chart above, have been adversely
                impacted by contaminant migration from these sites, especially tritium. However,
                remedial actions through 2000 showed little impact on decreasing tritium.

                Ground and surface water monitoring data for the ORWBG and H-Area indicated
                that migration of contaminants from these units had increased or stabilized rather
                than decreased. The number of monitoring wells with contaminants in excess of
                EPA’s maximum contaminant levels (MCL) increased between 1998 and 2000.
                The percentage of monitoring well results above EPA MCLs for the H and F
                Areas and burial grounds are shown in Table 3-4 below5:

                                        Table 3-4: H and F Areas and Burial Grounds -
                            Percent of Monitoring Wells Above EPA’s Maximum Contaminant Level

                                                   % Monitoring Wells Above Maximum Contaminant Level
                        Contaminant
                         of Concern                    1998                  1999                   2000

                  Metals                               17%                     14%                  21%

                  Tritium                              51%                     54%                  63%

                  Other Radionuclides                  40%                     36%                  46%

                  Sulfates/Nitrates                    20%                     22%                  35%


                Not only did the number of wells exceeding MCLs increase, but the amount of


        5
           We requested monitoring well data for the ORWBG and the H-Area operable units for the period 1995-
2001. However, the data DOE provided did not comply with our request and could not be used to determine
overall contamination trends in these units.

                                                                                     Report No. 2002-P-00014
                                                       13
                                 contamination within the wells increased. For example, in 1996, the
                                 average tritium concentration in ORWBG wells was about 11 million
                                 picocuries per liter (pCi/L) with the highest annual detected
                                 concentration being 160 million pCi/L. These concentrations were
                                 535 and 8,000 times greater than EPA’s 20,000 pCi/L MCL for
                                 tritium, respectively. In 2000, the average tritium concentration was
                                 found to be almost 15 million pCi/L (739 times greater than MCL),
                                 and the highest detected concentration was 272 million pCi/L
                                 (13,600 times MCL). This increase in tritium concentrations
                                 indicates that the ORWBG interim, temporary soil cover may not be
                                 adequate to reduce the contaminant migration from the ORWBG
 Figure 5: SRS monitoring well.
 (Source: SRS Environmental
                                 soil to the groundwater as originally intended. In a May 2001
 Report for 2000, Summary)       meeting between SRS, Region 4, and the State, SRS staff stated that
                                 tritium and gross alpha and beta concentrations had increased in the
                   burial ground groundwater.

Not All Stakeholders Fully Involved in Prioritization Process

              EPA’s policy for prioritizing federal facility cleanup work, as stated in Chapter 5,
              Consensus Principles and Recommendations for Improving Federal Facility
              Cleanup, emphasizes that priority setting for cleanup actions should involve all
              stakeholders. The policy recommends a priority setting process whereby
              stakeholders are informed of and participate in important decisions that will affect
              the scope and schedules of work to be performed at federal facilities. Further,
              priority setting and funding allocations must be transparent and done in a fair
              manner that stakeholders perceive as legitimate. The policy defines stakeholders
              as: (1) the general public with emphasis on communities of color, indigenous
              peoples, and low-income communities; (2) regulators, and (3) state, local, and
              tribal governments.

              According to DOE, the SRS site rankings, work plans and the methods used to
              select remedial activities included in the plans were not published for information
              and comment by all stakeholders, including the general public and local
              communities and governments, as recommended in the policy. Each year Region 4
              and the State negotiate with DOE on the remedial activities included in annual and
              future years’ work plans. Therefore, EPA and the State are aware of the work
              plans and the activities included but there was no evidence that Region 4 and the
              State were aware of the process or methodology SRS used to initially prioritize
              and select projects to be included in these plans. Region 4 indicated that SRS does
              provide the SRS Citizen Advisory Board with their goals/priorities and work plans.
              However, the information provided to the Board does not include how DOE’s
              priorities relate to site risks and the FFA work prioritization process.




                                                                           Report No. 2002-P-00014
                                                14
Recent Reviews Acknowledged That Risk Reduction Was Not A
Priority

          DOE’s recent review of its Environmental Management Program acknowledged
          that actual reduction of risk to workers, the public, and the environment had not
          been the primary focus of DOE’s cleanup program. The report, “A Review of the
          Environmental Management Program,” issued February 4, 2002, stated that
          cleanups needed to be better planned and prioritized to achieve the greatest risk
          reduction. The report further states that more than $60 billion had been spent
          since the cleanup program’s 1989 inception without a corresponding reduction in
          actual risk. In this regard, the report points out that DOE’s current work planning
          processes and related interpretations of laws, regulations, and cleanup agreements:

                 ...have created obstacles to achieving cleanup that reduces risk to
                 human health and the environment as quickly as possible. Instead,
                 they [processes and interpretations] have resulted in resources
                 being diverted to low-risk activities [DOE Review of the
                 Environmental Management Program, dated February 2002, page
                 ES-2].

          The DOE review recommends that DOE’s cleanup work be prioritized to achieve
          the greatest risk reduction at an accelerated rate.

          A General Accounting Office report, Waste Cleanup: Status and Implications of
          DOE’s Compliance Agreements, issued May 2002, included a review of SRS’s
          process for prioritizing and allocating resources for site cleanups. The report
          indicated that SRS developed a decision model for allocating cleanup dollars based
          on efficiency with little emphasis on risk. According to the report, outside
          reviewers assessing the model concluded that “the model was so strongly weighted
          to efficiency that it was unlikely that serious risks to human heath and the
          environment could alter the sequencing of work.” DOE officials told the General
          Accounting Office that the model was revised so that serious risks receive more
          priority.

Region 4 Did Not Evaluate DOE Compliance with FFA Prioritization
Process

          Under FFA requirements, DOE is required annually to provide EPA and the State
          with a revised FFA Appendix C, and work plans for the current fiscal year
          (Appendix D) and three future years (Appendix E). EPA and the State are to
          review and comment on the revised Appendix C within 120 days of receipt, and on
          work plans no later than December 31 of each fiscal year. By December 1 of each
          fiscal year, an FFA progress report for the previous fiscal year is required. This
          report generally describes the status of each operable unit, remedial and removal

                                                                    Report No. 2002-P-00014
                                           15
         activities completed, and cleanup activities planned for the current fiscal year.

         Region 4 Federal Facilities Branch staff indicated they did not evaluate SRS
         progress reports and work plans, along with Appendix C priority listings of
         operable units, to assess DOE compliance with the FFA’s work prioritization
         requirements. The staff indicated that they reviewed work plans to ensure that a
         consistent level of work was maintained from year to year, and that there was a
         balance of different types of cleanup activities in the CERCLA pipeline, i.e.,
         balance between number of Remedial Investigations/Feasibility Studies, RODs, and
         remedial actions planned. The Region 4 SRS Remedial Project Manager believed
         that SRS had, to some degree, addressed most of the worst sites, but Region 4
         officials had not really looked at SRS’s work prioritization for a number of years.
         The emphasis in SRS work plans on operable units that were highly ranked by
         PREScore was not evaluated. Region 4 staff realized that DOE may have
         addressed some low priority operable units to get “bean counts” for DOE
         performance measurement purposes. The Remedial Project Manager stated that
         targeting resources on sites of lesser risk allowed DOE’s remedial program to
         show progress.

Conclusion

         Without greater Region 4 oversight and an SRS work prioritization process that
         emphasizes reduction of the greatest risks to human health and the environment,
         severely contaminated SRS sites could continue to release toxic and radioactive
         substances into the environment, groundwater, and surface waters. In addition,
         the process used to establish cleanup priorities should (1) involve all stakeholders,
         (2) be clear to the public and other stakeholders, and (3) provide assurance that the
         greatest threats to human health and the environment will be timely addressed.

Recommendations

         We recommend that the Region 4 Administrator:

             3-1. Require that DOE SRS develop a work planning process that ranks and
                  schedules sites for cleanup based on a priority system that is clear and
                  easily understood by all stakeholders and provides the greatest risk
                  reduction.

             3-2. While PREScore continues to be the process for prioritizing cleanup
                  actions, evaluate the use of PREScore by DOE SRS staff to ensure that
                  sites have been properly ranked as to relative risk to human health and the
                  environment, and require that the rankings be considered in annual and
                  future work plans.


                                                                      Report No. 2002-P-00014
                                            16
          3-3. Establish Regional oversight procedures that ensure SRS sites are ranked
               and cleanup projects are planned in compliance with the agreed upon work
               prioritization methodology.

          3-4. Require DOE to obtain input from all stakeholders on the scheduling of
               sites for cleanups, the methodology used for prioritizing cleanup activities,
               and how the methodology relates to site risks.

Agency Comments and OIG Evaluation

         Region 4 generally agreed with the recommendations. Region 4 agreed to (1)
         work with DOE and the State to clarify SRS’s existing work planning process to
         the extent possible, (2) evaluate SRS use of PREScore to ensure that sites are
         properly ranked, (3) require SRS to consider these rankings in annual and future
         work plans, and (4) review and update Region 4 oversight procedures to ensure
         that sites are ranked and cleanups are planned in compliance with the agreed upon
         prioritization methodology.

         In terms of obtaining input from all stakeholders, Region 4 said that it will discuss
         with DOE and the State the possibility for improvement in this area. Region 4
         indicated that DOE had established a stakeholder participation program at SRS
         based on the April 1996 Final Report of the Federal Facilities Environmental
         Restoration Dialogue Committee and had worked diligently to inform stakeholders
         of the methodology used to prioritize site cleanups. This report specifies that all
         stakeholders, including local communities, local governments, and the general
         public should be involved in establishing federal facility cleanup priorities.
         However, we were not provided information, by Region 4 or DOE SRS, that
         shows all stakeholders were included. Rather, DOE SRS informed us that work
         plans and cleanup prioritization methodologies were not submitted to the general
         public or local governments and communities for information and comment.
         Therefore, DOE needs to improve its outreach to involve all stakeholders as
         specified in the subject report.

         The OIG requires information on specific actions taken or planned in response to
         the recommendations, and milestone dates for completion of planned actions, in
         order to resolve the recommendations presented in this chapter.




                                                                    Report No. 2002-P-00014
                                          17
     Report No. 2002-P-00014
18
                               Chapter 4
              Insufficient Region 4 Oversight
          Causing Delays and Potential Impacts
          to Human Health and the Environment
          Remedial actions at highly contaminated SRS sites have been delayed due to late
          Region 4 responses to DOE primary cleanup decision documents. Region 4
          comments on primary documents were overdue by as much as a year. Further, late
          EPA responses and non-attendance at meetings have delayed cleanup milestones
          by 8 months or more. In some cases, DOE officials said they proceeded with
          cleanup actions without Region 4 approval, contrary to FFA requirements, to
          avoid delays. Region 4 staffing was reduced in 1996 but an increasing workload in
          1999 and subsequent years resulted in escalating problems with timely review of
          SRS cleanup actions. Federal Facility Branch workload analyses indicated that the
          SRS FFA team has been understaffed by a minimum of two full-time equivalents
          (FTEs). However, Region 4 management had not allocated the level of staffing
          reflected in these workload analyses. For 2002, DOE estimated that late Region 4
          responses will cost DOE approximately $2.7 million. These delays may result in
          continued contaminant releases to the environment and associated risks to human
          health.

EPA’s Review Period for Primary Documents Established by FFA

          The SRS FFA established DOE’s responsibility for issuing primary and secondary
          documents to EPA and the State (Section XXII). Primary documents include
          major cleanup decision documents for which milestones have been established in
          the FFA annual work plans. These documents include Remedial Investigation
          Work Plans and Reports, Baseline Risk Assessments, Feasibility Studies,
          Statements of Basis/Proposed Plans, RODs, Remedial Design Work Plans and
          Reports, Remedial Action Work Plans, and Post-Construction/Final Remediation
          Reports. The period of review for EPA and the State on primary documents is
          generally established in Appendix I of the FFA, and ranges from 45 to 120 days.

Consistently Late Responses and Staff Unavailable for Meetings

          Both DOE and the State agency staff told us that, since 1999, Region 4 has been
          consistently late in responding to primary cleanup documents and, on occasion,
          have been unavailable for meetings on important cleanup decisions. DOE
          Summary of Extension Requests for October 2000 through February 4, 2002,
          showed that milestones for completion of decisions on five RODs, four Statements
          of Basis/Proposed Plans, and two Remedial Investigation reports were delayed due

                                                                   Report No. 2002-P-00014
                                          19
          to “Delay in receipt of US EPA comments,” or “US EPA unable to participate in
          meetings.” SRS provided a status report that showed that, as of January 21,
          2002, Region 4 was late in responding on 11 primary remedial cleanup documents,
          which represent 85 percent of the documents included in the January 21 status
          report. Region 4 comments and/or approval on SRS primary documents were
          delayed from up to 12 months to just 2 days after the original due date. Details on
          the 11 primary documents and resulting delays are shown in Table 4-1 below.

                       Table 4-1: Late Region 4 Responses to SRS Primary Documents

                           Operable Unit/                      Original     Date        Total
                       FFA Primary Document                    Due Date   Received      Delay

           TNX Statement of Basis/Proposed Plan (SB/PP)        05/11/01   05/10/02     364 days

           TNX Remedial Investigation/Feasibility Study        07/06/01   05/10/02     308 days

                                                                                      184 days
           A-Area Miscellaneous Rubble Pile ROD                12/28/01   Not Rec’d as of 06/30/02

           TNX Outfall Delta Remedial Investigation/Baseline
           Risk Assessment                                     11/23/01   05/10/02     168 days

           TNX Area Groundwater ROD Explanation of
           Significant Difference                              12/10/01   05/10/02     151 days

           Old F-Area Seepage Basin Groundwater
           Corrective Action Plan                              11/27/01   04/04/02     128 days

           Ford Building Seepage Basin ROD                     09/19/01   12/16/01     88 days

           Fourmile Branch Remedial Investigation Work Plan 01/04/02      03/13/02     68 days

           L-Area Reactor Seepage Basin ROD
           Technical Evaluation Report                         01/12/02   02/14/02     33 days

           Central Shops Burning Rubble Pit SB/PP              01/20/02   01/23/01      3 days

           P-Area Burning/Rubble Pit SB/PP                     01/20/02   01/22/02      2 days



Potential Environmental and Human Health Impact of Untimely Region
4 Oversight

          Delays in cleaning up hazardous wastes caused by untimely Region 4 action may
          result in continued contaminant releases to the environment and associated risks to
          human health. Following are two cases in which material impacts on DOE
          implementation schedules may have compounded existing risks to human health
          and the environment.

          ‘ Late EPA responses to three decision documents related to the TNX operable
            unit resulted in a possible 8-month delay in issuance of the ROD. The original
            ROD milestone was March 20, 2002, but is expected to be moved to late
            November 2002 due to Region 4's inability to respond timely to ROD

                                                                           Report No. 2002-P-00014
                                               20
             supporting documents. A portion of this TNX operable unit represented the
             sixth highest of 73 ranked CERCLA units in 2002 based on relative risk to
             human health and the environment. The TNX ROD will include remediation of
             groundwater highly contaminated with chlorinated volatile organic compounds,
             which are migrating to the nearby swamp and surface water and could
             eventually enter the Savannah River one-fourth a mile away.

          ‘ Because of an overdue response from Region 4, DOE also indicated that the
            ROD milestone for the A-Area Miscellaneous Rubble Pile operable unit had
            been moved from February 25, 2002, to June 20, 2002, a 4-month delay. DOE
            further indicated that they expect further delays in issuing this ROD due to the
            need for specific language from Region 4 related to institutional controls
            included as part of the proposed remedy. The ROD addresses significant
            human health threats in the soil due to contamination from polycyclic aromatic
            hydrocarbons, polychlorinated biphenyl, arsenic, lead, and volatile organic
            compounds.

          DOE officials told us that the constant rescheduling of meetings and time
          extensions for comments/approvals from Region 4 consume a significant amount
          of DOE’s resources. For 2002 alone, DOE estimated that Region 4’s overdue
          responses will cost DOE approximately 2,793 days of lost time, or approximately
          $2.7 million in resources. A DOE analysis showed that, for 2002, Region 4 had
          been 6 to 168 days late on 90 percent (42) of primary documents.

          To avoid delays, DOE officials indicated that, in at least two cases, DOE
          proceeded with cleanup activities without EPA comments and approvals.

Inadequate Regional Staff Precluded Timely EPA Oversight

          Both the SRS staff and the State, as well as DOE, indicated Region 4 is
          understaffed in the DOE oversight section. The Region 4 lead Remedial Project
          Manager for SRS said that, with current staff, he could not effectively handle the
          volume of documents received from SRS for review, comment, and/or approval.
          There are currently three Remedial Project Managers assigned to the SRS. Two
          work full time and the third has limited availability. Workload analyses prepared
          by the Region 4 Federal Facilities Branch in 1999 and 2002 noted that minimum
          staffing required five full-time equivalents. The SRS oversight team was reduced
          from four to three Remedial Project Managers in 1996 but workload increases due
          to the maturing of SRS’s cleanup program and implementation of the core team
          process has elevated the full-time equivalent positions needed for effective SRS
          oversight by Region 4.

          For SRS, Region 4 currently oversees cleanups at 84 CERCLA operable units and
          25 RCRA waste management units. About 250 sites remain to be evaluated for

                                                                    Report No. 2002-P-00014
                                          21
         future characterization and cleanup actions. In addition, Region 4 oversees the
         closure of 51 SRS high level waste tanks. An average of about 30 to 40 highly
         technical primary documents, ranging up to several hundred pages, are received by
         Region 4 from SRS each year. For each of these primary documents, there are
         multiple supporting, secondary documents that Region 4 must review, as well as
         numerous periodic reports on SRS activities. Also, the Remedial Project
         Managers attend up to 30 plus core team and management meetings that also
         include SRS staff and the State. The Region 4 Federal Facilities Branch Chief
         stated that he had requested additional staff (currently, two staff positions), but
         Regional senior management had told him that the positions were not available.

         We noted that, in one case, Region 4 worked around the staffing problem by
         assigning an SRS primary document to a Region 4 employee in the Region’s
         Science and Ecosystem Support Division. This person was able to quickly
         respond to the document and lessen the impact on DOE’s cleanup implementation
         schedules.

Conclusion

         Late Region 4 responses and/or approvals for primary cleanup decision documents
         unnecessarily delay the containment and control of hazardous substance releases
         and the cleanup of highly contaminated sites. These delays may result in continued
         contaminant releases to the environment and associated risks to human health.

Recommendations

         We recommend that the Region 4 Administrator:

             4-1. Evaluate the workload analyses prepared for the SRS and other DOE FFAs
                  to determine the number of Remedial Project Managers needed to
                  effectively oversee these agreements, and obtain and/or allocate resources
                  necessary to properly staff and support the oversight of these FFAs.

             4-2. If resources cannot be provided to ensure effective oversight, evaluate
                  whether the deficient staffing and related oversight should be reported as a
                  material management weakness in the annual Federal Managers’ Financial
                  Integrity Act report.

Agency Comments and OIG Evaluation

         Region 4 indicated that, in consultation with Federal Facilities Restoration and
         Reuse Office (FFRRO), the Region’s Federal Facilities Branch had evaluated the
         current and planned workload for oversight of SRS and other Region 4 federal
         facilities. Based on this evaluation, FFRRO determined that the Branch was six

                                                                      Report No. 2002-P-00014
                                            22
FTEs below the number needed for effective oversight of DOE facilities in the
Region. Region 4 stated that the Branch had already deferred oversight of 11
major Department of Defense (DOD) facilities to appropriate states and reassigned
the staff from DOD to DOE facility oversight to the maximum extent possible.
Region 4 indicated that the Region’s Waste Management Division will work
diligently to obtain, reallocate, or reassign staff, where possible, to properly staff
and support the Region’s oversight responsibilities. If adequate resources cannot
be allocated to the Federal Facilities Branch, the Region, in coordination with EPA
national program offices, will evaluate whether the deficient staffing and related
oversight should be reported as a material management weakness.

Region 4's analysis of staffing shortages included staffing needed for oversight of
all DOE facilities. In response to the final report, the Region needs to provide
specific actions taken or planned to correct oversight staffing for the SRS FFA as
detailed in this chapter. Also, milestones for completion of planned actions will be
needed for resolution of the recommendations.




                                                            Report No. 2002-P-00014
                                  23
     Report No. 2002-P-00014
24
                                Chapter 5
     Improved Procedures and FFA Modifications
          Needed for Effective Oversight of
       Five-Year Reviews and Site Evaluations
          Region 4 needs to improve controls over reviews of DOE five-year review reports.
          Region 4 did not properly review and comment on the DOE 1997 report. Both
          the 1997 report and draft 2002 five-year report did not adequately address all
          remedial actions subject to the five-year review process. As a result, the five-year
          review reports did not reflect the continued protectiveness and compliance of these
          remedies with Applicable, Relevant, and Appropriate Requirements as required by
          CERCLA and EPA guidance.

          In addition, the FFA needs to be modified to permit more effective EPA oversight
          of five-year reviews and site evaluations. The FFA does not reflect current EPA
          requirements for five-year reviews, including the requirement for EPA review and
          approval of DOE’s five-year review reports as reflected in EPA guidance, dated
          June 2001. The FFA also does not provide a process for resolving inadequate
          SRS site evaluations. EPA has encountered serious deficiencies in SRS sample
          data validation procedures for site evaluations but site evaluations are not subject
          to dispute resolution and enforcement under the FFA. Site evaluations have
          remained unresolved for years. Inadequate site evaluations could result in threats
          to human health and the environment not being properly identified and addressed
          by appropriate remedial actions.

Region 4 Oversight of Five-Year Reviews Needs Improvement

          Region 4 did not formally review and provide comments to DOE on the last
          official SRS five-year review of remedial actions, issued in 1997, to ensure that the
          review provided adequate assurance that remedial actions remained protective of
          human health and the environment. These reviews were considered secondary
          documents under the FFA which only required Region 4 review and comment if
          appropriate. Consequently, Region 4 provided no formal comments, even though
          EPA guidance required Region 4’s review and approval. On the other hand, the
          draft 2002 five-year review report for SRS adequately addressed protectiveness
          issues, but did not include at least five remedies that should have been subject to a
          five-year review. The problems with both the 1997 and 2002 review reports
          occurred because SRS believed that remedies that were also RCRA corrective
          actions did not require a five-year review, but this was not the case.



                                                                      Report No. 2002-P-00014
                                           25
CERCLA and NCP Require Five-Year Reviews

         CERCLA, as amended by the 1986 Superfund Amendment and Reauthorization
         Act (SARA), and the NCP require that five-year reviews be performed for any
         remedial action that results in any hazardous substance, pollutants, or contaminants
         remaining at a site above levels that allow for unlimited use and unrestricted
         exposure. These are referred to as statutory reviews. EPA guidance also requires
         policy reviews for any pre-SARA remedial actions that leave waste on-site at a
         level that does not permit unlimited use or exposure and any remedial actions that
         will take more than five years to obtain remedial goals of unlimited use and
         exposure at the site.

         OSWER five-year review guidance, in effect since 1991, requires that long-term
         response actions that will take more than five years to complete will be subject to a
         five-year review by policy. In 1994, OSWER added the requirement that five-year
         reviews performed by other federal agencies required EPA’s review and approval.
         OSWER Directive 9355.7-02, dated May 23, 1991, stated performance of ongoing
         or interim remedies expected to take more than five years to accomplish should be
         subject to five-year policy reviews. Several ongoing interim remedial actions at
         SRS are projected to continue for up to 30 years. Five-year reviews should
         determine whether such long-term remedies are performing as intended, interim
         remediation goals are being met, and human health and the environment are
         protected. OSWER Directive 9355.7-02A, dated July 26, 1994, provided that
         other federal agencies could perform five-year reviews of their remedial actions,
         but EPA should review it and concur or non-concur. Further OSWER Directive
         9355.7-03A, dated December 21, 1995, stated that the most important
         determination from a five-year review is whether the remedy remains protective of
         human health and the environment. Five-year reviews should fully inform
         Congress and the public as to the compliance and protectiveness of remedial
         actions.

         In June 2001, OSWER issued Directive 9355.7-03B-P, titled Comprehensive Five-
         Year Review Guidance, which superseded all prior OSWER directives on five-year
         reviews. This Directive consolidated prior five-year review requirements, as cited
         above, into one policy document.

Five-Year Review Reports Not Consistent With CERCLA and EPA
Requirements

         Only 15 of 23 remedial actions in SRS’s 1997 five-year review report required a
         five-year review under CERCLA and EPA guidance. However, for one third of
         these actions (i.e., five), DOE did not answer the questions as to the current and
         future protectiveness of the remedies or areas of noncompliance. Rather, DOE
         noted, “This section is covered by SRS RCRA.” In other words, DOE believed

                                                                    Report No. 2002-P-00014
                                          26
                 that CERCLA remedies that were also RCRA corrective actions did not require a
                 five-year review. However, the remedies reviewed in the 1997 report were subject
                 to CERCLA requirements because they had been issued as RODs.6 In addition,
                 DOE’s proposed 2002 five-year review did not include five remedies, that should
                 have been reviewed. Inadequate five-year reviews and omission of remedial
                 actions from the five-year review process does not provide assurance to Congress
                 and the public as to the continued protectiveness of such actions.

FFA Needs Modifications to Improve Region 4 Oversight

                 The SRS FFA needs modifications related to requirements for remedial action five-
                 year reviews and site evaluations to improve Region 4 oversight. Specifically:

                 ‘       The FFA has not been modified to reflect 1994 changes in EPA five-year
                         review guidance, which permitted federal facilities to perform five-year
                         reviews with EPA review and concurrence/nonconcurrence7. The FFA
                         currently provides that EPA and the State will perform the five-year
                         reviews of SRS remedial actions. However, DOE performs those reviews.
                         The FFA contains no provision for Region 4 review and approval of five-
                         year reviews, as currently required by EPA guidance.

                 ‘       Although site evaluations are primary decision documents for continuing
                         sites into the Remedial Investigation/Feasibility Study phase, the SRS FFA
                         currently lists site evaluations as secondary documents. Such documents
                         are only subject to review and comment by Region 4, and not the FFA
                         dispute resolution and enforcement provisions. Region 4 and the State
                         have noted serious problems with the quality of SRS site evaluations. The
                         FFA contains no process for resolving disagreements over site evaluations,
                         and some site evaluations have been in “limbo” for years.

Deficiencies in 1997 Five-Year Report Not Identified and Resolved

                 EPA guidance for five-year reviews, in effect when the SRS FFA was finalized
                 (OSWER Directive 9355.7-02, dated May 23, 1991), indicated that EPA and/or
                 states were responsible for performing five-year reviews of remedial actions. EPA
                 supplemental guidance (OSWER Directive 9355.7-02A, dated July 26, 1994)


        6
          Two of these five remedies have serious problems and will not, in their current form, meet remedial
goals. Groundwater extraction, treatment, and re-injection systems currently have problems in screening metals
from the groundwater, and tritiated water in excess of maximum contaminant levels have continued to migrate into
watersheds.

        7
          In June 2001, the 1994 five-year review requirements were incorporated into EPA’s Comprehensive
Five-Year Review Guidance, OSWER Directive 9355.7-03B-P.

                                                                                   Report No. 2002-P-00014
                                                      27
          changed the 1991 policy to indicate that, generally, each federal agency would
          perform five-year reviews of remedial actions implemented at their respective
          facilities. This policy change was subsequently incorporated into EPA’s
          Comprehensive Five-Year Review Guidance (OSWER Directive 9355.7-03B-P)
          issued in June 2001. Under both the 1994 and current 2001guidance, EPA is
          responsible for evaluating the reviews performed by other federal agencies and
          providing concurrence/nonconcurrence. However, the SRS FFA was not modified
          to reflect the 1994 change in EPA guidance. As noted previously in this chapter,
          the SRS DOE 1997 five-year review was issued without EPA comments, and the
          2002 SRS five-year review omitted five CERCLA actions that required a five-year
          review.

Problems with SRS Site Evaluations Remain Unresolved

          The Region 4 SRS Remedial Project Manager indicated that at the time the SRS
          FFA was executed, EPA was more focused on cleaning up sites where there was
          known contamination, whereas sites where there was no information as to releases
          or potential releases of contaminants were considered secondary. However, since
          that time Region 4 has realized that sites on the SRS site evaluation list could
          represent threats to human health and the environment and need to be properly
          addressed.

          Site evaluations identify and screen newly discovered or existing potentially
          contaminated areas and determine whether there is a threat to human health and
          the environment that warrants further action. The State has the lead for oversight
          of SRS site evaluations. The SRS Region 4 remedial project manager said that the
          State and Region 4 had serious concerns with the quality of SRS site evaluations,
          including the extent of sampling and testing performed by SRS and quality
          assurance/quality control standards. For example, only 10 percent of sample data
          was subject to validation procedures, whereas 100 percent validation is used by
          SRS during the remedial investigation/ feasibility study phase. Also, unusable
          sample data was not flagged by SRS during verification/validation, and data
          validation criteria was not clear.

          According to the State, as of February 2002, there were seven SRS site
          evaluations for which State and EPA concerns had not been resolved, and had
          been outstanding as far back as 1995. Since the FFA designated site evaluations as
          secondary documents not subject to the FFA dispute resolution and enforcement
          process, there was no process for resolving deficient site evaluations.




                                                                   Report No. 2002-P-00014
                                          28
Conclusion

         CERCLA and EPA guidance requires that five-year reviews of remedial
         actions verify the continued protectiveness and compliance of remedial
         actions. Region 4 oversight procedures for DOE five-year reviews did not
         ensure that the reviews were consistent with CERCLA and EPA guidance.
         To ensure DOE understands EPA’s five-year review guidance, DOE
         should be informed of EPA requirements for five-year reviews on RCRA
         sites when selected cleanup actions are issued as RODs. Further, the FFA
         does not currently reflect EPA requirements for five-year reviews
         performed by another federal agency, especially EPA review and approval
         of such reviews. The FFA also designates site evaluations as secondary
         documents that are not subject to the FFA dispute resolution and
         enforcement process. As a result, SRS site evaluations, determined to be
         inadequate by EPA and the State, have remained unresolved. Inadequate
         SRS site evaluations could result in risks to human health and the
         environment not being addressed.

Recommendation

         We recommend the Region 4 Administrator:

             5-1. Require DOE SRS to perform five-year reviews for RCRA corrective
                  actions that are also included in CERCLA RODs.

             5-2. Establish procedures to ensure that SRS five-year review reports are
                  properly reviewed by appropriate Region 4 personnel and concurrence or
                  nonconcurrence is provided for each report.

             5-3. Negotiate modifications to the SRS FFA to provide that:

                  •   DOE perform the five-year reviews of remedial actions at SRS and that
                      EPA will review the DOE five-year review reports and provide
                      concurrence or nonconcurrence as currently required in EPA guidance.

                  •   Five-year review reports and site evaluations are primary documents
                      subject to the FFA dispute resolution and enforcement procedures.

Agency Comments and OIG Evaluation

         Region 4 agreed with the findings and recommendations presented in this chapter.
         Region 4 will (1) require that DOE perform five-year reviews of all CERCLA
         actions including those remedial actions completed as part of RCRA corrective
         actions; (2) establish procedures to ensure proper review and

                                                                    Report No. 2002-P-00014
                                           29
concurrence/nonconcurrence with DOE five-year review reports; (3) seek
modifications to the FFA regarding EPA review and approval of DOE five-year
reviews and the designation of five-year review reports as primary documents; and
(4) evaluate, in consultation with FFRRO, the need to also designate site
evaluations as primary documents. Region 4 indicated that, in August 2002, they
received a draft Site Evaluation Protocol from DOE that will provide consistent
methods for conducting site evaluations at SRS and require EPA review and
approval of related Site Evaluation Reports.

The OIG requires information on specific actions taken or planned in response to
the recommendations and milestones for completion of planned actions will be
needed for final resolution of the recommendations presented in this chapter.




                                                         Report No. 2002-P-00014
                                30
                                 Chapter 6
      DOE Level of Funding May Not Be Sufficient
          A 1995 dispute resolution between EPA and DOE established the current level of
          SRS remedial funding. However, this funding level may not be sufficient to
          maintain the current level of cleanup effort or provide expeditious cleanup of
          CERCLA sites. DOE’s recent review of its Environmental Management Program
          acknowledged that DOE facility cleanups are not being accomplished expeditiously
          because resources have been focused on low priority activities. Additionally,
          increasing costs for long-term response actions have and will continue to erode
          SRS’s “consistent level” of remedial funding, and may preclude new starts.
          Further, Region 4 has not determined the total long-term estimated costs for SRS
          CERCLA cleanups and whether SRS’s current funding level will result in
          containment and cleanup of hazardous substances within a reasonable time frame.

CERCLA Requires Expeditious Completion of Remedial Actions

          The SRS FFA states that DOE shall take all necessary steps and use its best efforts
          to obtain timely funding to meet its FFA obligations and milestone dates, including
          the submission of timely budget requests (Section XXXIX). CERCLA Section
          120 further states there should be agreement on the “expeditious” completion of all
          necessary remedial actions, and that remedial actions at facilities subject to
          interagency agreements be completed as “expeditiously as practicable.” The FFA
          does not include provisions for Region 4 involvement in SRS’s budget formulation
          and cost estimations for remedial activities. The FFA does provide for Region 4
          review and comment on annual and future years milestones, but these work plans
          do not include individual project cost estimates or operation and maintenance costs
          for ongoing remedies.

Dispute Resolution Agreement Provided Level of Effort and Funding

          In 1995, Region 4 and SRS negotiated and resolved a formal dispute over DOE
          funding for FFA cleanups. According to Region 4 staff, DOE SRS in 1995 agreed
          to budget about $100 million annually to maintain a consistent level of remedial
          investigations and related cleanup activities. The $100 million annual budget
          reflected the funds needed to accomplish milestones in the annual and future work
          plans at that time and the level of effort that EPA and State staffs could effectively
          review. The level of remedial effort and funding was not based on risk reduction
          or controlling releases of hazardous substances within a reasonable time frame.




                                                                      Report No. 2002-P-00014
                                            31
Long-Term Cleanup Costs May Adversely Impact Remedial Budget
                At the time of our review, Region 4 was not aware of the project costs for annual
                or long-term estimated costs of remedial operations. Therefore, Region 4 did not
                know how long it would take SRS to complete all agreed to remedial actions.
                According to the 1998 and 2000 DOE Paths to Closure reports, the long-term
                CERCLA cleanup costs at SRS ranged from about $2 billion to $4.4 billion, and
                would be completed in 20388. However, neither report specifically identified
                CERCLA cost estimates versus other cleanup estimates. Based on the estimates, a
                $100 million annual budget would require 20 to 44 years (excluding affects of
                inflation) to accomplish the current inventory of remedial cleanup activities, and
                the effects of inflation on a level budget could more than double these years.

                Region 4 agreed to a consistent level of effort and related funding without
                determining the total scope and estimated cost of CERCLA cleanups at the SRS.
                The consistent level of effort and funding was not based on reduction of risk to
                human health and the environment within any specified time frame. As a result,
                Region 4 does not know if the level of effort and funding is adequate.

                Because of the increasing number of long-term remedies, such as groundwater
                extraction, treatment and re-injection systems, with annual recurring costs, SRS
                may not be able to maintain the same level of effort with the same level of funds.
                SRS completed many of the short-term, less costly containment and control
                remedies at CERCLA units early in the FFA process. With rising costs for long-
                term, more expensive response actions, the availability of funds to maintain the
                same number of action starts under the current funding level will be difficult. The
                State indicated that DOE is already cutting the number of remedial investigation
                starts and RODs in future work plans.

DOE Review Acknowledged Cleanups Not Being Timely Completed

                The DOE’s Review of the Environmental Management Program, issued February
                4, 2002, indicated that DOE facilities had not properly focused program resources
                on quickly reducing risk to public health and the environment and had expended
                resources for low risk activities. The report further states: “The reality of an
                extended cleanup schedule is that eventually it will lead to more prolonged and
                severe public health and environmental risks.” The report recommends that
                program resources be increased and focused principally on cleanup actions that
                achieve the greatest risk reduction at an accelerated rate.




        8
           DOE Office of Environmental Management Reports: Accelerating Cleanup, Paths to Closure, June
1998, and Status Report on Paths to Closure, March 2000.

                                                                                Report No. 2002-P-00014
                                                    32
Conclusion

         Region 4 needs to obtain more information on SRS budgets and projected costs
         estimates related to long-term response actions and total estimated final cleanup
         costs. This information is needed to assess the adequacy of the current funding
         level to maintain the current level of effort and provide expeditious cleanup of
         CERCLA sites.

Recommendations
         We recommend that the Region 4 Administrator:

         6-1.   Obtain DOE cost estimates for long-term response actions and final
                CERCLA cleanup at SRS to determine whether the current funding level is
                sufficient to (1) maintain the current level of remedial cleanup activities and
                (2) provide adequate protection to human health and the environment
                within a reasonable time frame. If not, negotiate an adjustment in the
                funding level with DOE to ensure that, at a minimum, the current annual
                level of remedial actions are maintained.

Agency Comments and OIG Evaluation

         Region 4's response indicated that the Region receives cost information for long-
         term response actions and final CERCLA cleanups at SRS on an annual basis. The
         Region further stated that the FFA requires EPA agreement on DOE’s planned
         actions and budget for the current fiscal year and the subsequent two years.

         Information and documentation provided during the evaluation did indicate that
         Region 4 received SRS annual and future work plans as required by the FFA, but
         there was no evidence that Region 4 received project cost or specific budget
         information related to these work plans. On at least two occasions, we asked the
         Region 4 lead Remedial Project Manager if any project cost information or total
         cost estimates for cleanup of SRS CERCLA sites were received and we were told
         they were not. DOE SRS staff told us that they provided EPA with a budget
         overview on an annual basis. However, this does not show costs by project or by
         CERCLA units. Also, total long-term cost cleanup estimates that were provided
         to us by SRS show costs by DOE program category and not by applicable law or
         regulation such as CERCLA. Therefore, we do not understand how Region 4
         could be receiving final CERCLA cleanup costs for SRS.

         In addition, we could not find any provision in the SRS FFA that required that
         SRS submit their budget to EPA or that EPA had to agree with the budget.
         Section XX of the FFA requires that DOE submit current fiscal year and two
         future year work plans to EPA for review and approval but does not require that

                                                                     Report No. 2002-P-00014
                                          33
project cost estimates and related budget requests also be submitted with the work
plans. This Section further states that when DOE receives its budget allotment for
the current fiscal year, EPA and the State will be notified of the receipt and a
revised work plan will be submitted to EPA for review and concurrence within 30
business days of receipt of the budget allotment. However, the work plans we
were provided only included a project description and projected milestone dates
for project completion. There were no budget requests, project costs, or budget
allotment information in these work plans.

Region 4 did not provide any documentation during the evaluation and in the
response to the draft report to show that the Region receives project costs or total
long-term remedial cost estimates from DOE. To resolve this recommendation,
Region 4 needs to provide documentation that it has received current total
CERCLA cleanup cost estimates and has made a determination, based on these
estimates, that the current DOE funding level for SRS remedial actions will
provide expeditious cleanups as required by CERCLA.




                                                           Report No. 2002-P-00014
                                 34
                                                                                                Appendix 1

                    Details on Scope and Methodology

The SRS evaluation fieldwork was performed by the OIG from September 2001 through July
2002. This evaluation was performed in accordance with the Government Auditing Standards,
issued by the Comptroller General of the United States.

Preliminary research and fieldwork were conducted at Region 4 headquarters in Atlanta, Georgia,
and the DOE SRS and South Carolina Department of Health and Environmental Control offices
in Aiken and Columbia, South Carolina. The scope of our review included cleanup actions from
June 1992 to December 2001.

We interviewed Region 4 staff, DOE staff and contractors, OSWER officials, and staff from the
South Carolina Department of Health and Environmental Control. Titles of principal persons
interviewed are shown in footnote below9. In addition, we evaluated controls established by the
SRS FFA to ensure consistency and compliance with applicable laws, regulations, and policies,
and Region 4’s implementation of these procedures to ensure that remedial actions initiated by
DOE were protective of human health and the environment to the maximum extent practicable.

To assess consistency of the FFA and related remedial actions with CERCLA and the NCP, we:

‘ Compared FFA provisions to requirements in CERCLA and the NCP.

‘ Identified all 41 remedial actions approved by Region 4 under the FFA and reviewed decision
  documents and supporting data for each action.

‘ Reviewed SRS FFA annual progress reports to ascertain EPA and State review and
  concurrence with FFA remedial actions.

‘ Interviewed officials (see titles in footnote 8) regarding: (1) the consistency of FFA
  requirements with CERCLA and NCP; (2) any Regional guidance pertaining to federal facility
  cleanups and the consistency of guidance with CERCLA and the NCP; (3) whether SRS-
  selected remedies met statutory and regulatory requirements; and (4) whether there were
  concerns with any SRS remedies to date.

To assess the adequacy of Region 4 oversight and implementation of the SRS FFA, we:



        9
           EPA Region 4 officials interviewed included the Federal Facilities Branch Chief, DOE Section Chief,
and Lead Remedial Project Manager for SRS. EPA OSWER Official included the FFRRO Coordinator for
DOE/Regions 4, 5, 6, 8 and 9. DOE SRS officials included the Assistant Manager of Environment, Science, and
Technology; Environmental Restoration Division Director; FFA Project Manager; and various SRS contractor
technical support personnel. The State staff interviewed included the FFA Project Coordinator and his immediate
staff.

                                                                                    Report No. 2002-P-00014
                                                      35
‘ Identified and evaluated primary Region 4 controls and procedures for ensuring compliance
  with FFAs and ultimately CERCLA and the NCP. This included specific controls and
   procedures related to establishing FFA milestones and ensuring that milestones are met.

‘ Reviewed FY 1999 through 2001 Federal Managers’ Financial Integrity Act reports for the
  Region 4 Waste Management Division to identify any material weaknesses related to
  oversight of federal facility cleanups.

‘ Interviewed officials (see titles in footnote 8) to identify potential problems with: (1) Region 4
  oversight of SRS cleanup activities; (2) FFA requirements; (3) DOE compliance with major
  FFA requirements and milestones; and (4) Region 4 guidance related to federal facility
  cleanups.

‘ Listed and evaluated all CERCLA operable units at SRS (84) and cleanup actions approved
  and initiated at each unit from 1992 through December 2001. This analysis included the
  media involved, contaminants of concern, milestone dates, selected remedies, remedial action
  status, five-year review requirements, and institutional controls and monitoring.

‘ Evaluated SRS land use control plans and remedial action five-year review reports for
  compliance with applicable policies and guidance and to determine whether institutional
  controls were properly implemented, maintained, and monitored. This included a review of
  RODs issued between 1992 and 2001 to determine that responsibility for implementation and
  maintenance of institutional controls were properly established in the RODs.

‘ Obtained FFA work plans with milestones and compared milestones for completion of cleanup
  actions to extension requests and/or actual completion dates.

‘ Obtained and reviewed environmental and water quality monitoring reports for ground and
  surface waters within and outside DOE facility boundaries to identify contaminant trends and
  related risks. This included monitoring reports for groundwater in the highly contaminated
  areas of SRS.

‘ Obtained and reviewed State and Centers for Disease Control public health assessments to
  identify risks from SRS activities and related environmental contamination.

To evaluate the impact of funding on DOE compliance with the FFA, we:

‘ Reviewed FFAs for requirements related to DOE budgets, annual plans, and EPA involvement
  in DOE planning and budgeting; and evaluated reports, plans, and correspondence related to
  these FFA requirements.

‘ Interviewed Region 4 and DOE SRS staff (see titles in footnote 8) regarding the FFA
  planning process, EPA’s involvement in DOE’s budgeting for remedial cleanups, the reasons
  for any funding shortfalls, and impacts of any funding problems on accomplishment of major
  milestones.

                                                                           Report No. 2002-P-00014
                                                 36
                                                                                    Appendix 2

           Prior Reports on Federal Facility Cleanups

We reviewed various management, evaluation, and audit reports that directly or indirectly related
to federal facility cleanups. The principal reports reviewed are listed below:

EPA OIG Reports:

       ‘       Superfund Audit Report, Laboratory Data Quality at Federal Facility Superfund
               Sites, #7100132, March 1997.

       ‘       RCRA Audit Report, Report on the Tank Waste Remediation System (TWRS)
               Program for the Hanford Federal Facility, #0-P-00012, March 30, 2000.

       ‘       Superfund Audit Report, Backlog of Five-Year Review Reports Increased Nearly
               Threefold, #1999-P-218, September 30, 1999.

DOE Internal Management Reports:

       ‘       Tritiated Wastewater Treatment and Disposal Evaluation for 1994, #DOE/RL-94-
               77, August 1994.

       ‘       Office of Environmental Management Reports: Accelerating Cleanup, Paths to
               Closure, June 1998, and Status Report on Paths to Closure, March 2000.

       ‘       A Review of the Environmental Management Program (a.k.a.: The Top to Bottom
               Review), February 4, 2002.

DOE OIG Reports:

       ‘       Sale of Land at Oak Ridge, #DOE/IG-0502, May 2001.

       ‘       The Decontamination and Decommissioning Contract at the East Tennessee
               Technology Park, #DOE/IG-0481, September 2000.

       ‘       Waste Characterization at Oak Ridge, #ER-B-00-03, June 2000.

       ‘       Decontamination and Decommission at the East Tennessee Technology Park,
               #ER-B-99-01, December 1998.

       ‘       Groundwater Remediation at the Savannah River Site, ER-B-96-02, June 11,
               1996.

                                                                         Report No. 2002-P-00014
                                               37
General Accounting Office Reports:

       ‘      Nuclear Cleanup - Difficulties in Coordinating Activities Under Two
              Environmental Laws, GAO/RCED-95-66, December 1994.

       ‘      Department of Energy - National Priorities Needed for Meeting Environmental
              Agreements, GAO/RCED-95-1, March 1995.

       ‘      Environmental Protection - Issues Facing the Energy and Defense Environmental
              Management Programs, GAO/T-RCED/NSIAD -96-127, March 21, 1996.

       ‘      Nuclear Cleanup - Completion of Standards and Effectiveness of Land Use
              Planning Are Uncertain, GAO/RCED-94-144, August 26, 1994.

       ‘      Superfund - More Emphasis Needed On Risk Reduction, GAO/RCED-96-168,
              May 8, 1996.

       ‘      Federal Facilities - Consistent Relative Risk Evaluations Needed for Prioritizing
              Cleanups, GAO/RCED-96-150, June 1996.

       ‘      Superfund - Progress Made by EPA and Other Federal Agencies to Resolve
              Program Management Issues, GAO/RCED-99-111, April 1999.

       ‘      Nuclear Cleanup - DOE Should Reevaluate Waste Disposal Options Before
              Building New Facilities, GAO-01-441, May 2001.

       ‘      Waste Cleanup - Status and Implications of DOE’s Compliance Agreements,
              GAO-02-567, May 2002.




                                                                        Report No. 2002-P-00014
                                              38
                                                                                          Appendix 3

            Records of Decision Issued Under SRS FFA
               Operable           Operable Unit            Remedial            RODs With
ROD Date        Unit No.             Name                   Action    PREScore No Cleanup Actions
29-Jun-92          2               Met Lab HWMF             IROD      Unknown
29-Jun-92          3                A/M-Area GW             IROD          4.27
29-Jun-92          1               M-Area HWMF              IROD          1.79
10-Sep-93          6                F-Area HWMF              ROD      Unknown     No action ROD
10-Sep-93          7               H-Area HWMF               ROD      Unknown     No action ROD
23-Sep-94         33                    MWMF                 ROD         42.66    No action ROD
23-Sep-94         34            Tank 105-C HWMF              ROD      Unknown     No action ROD
09-Nov-94         29                TNX Area GW             IROD         22.21
13-Feb-95         35                   Par Pond             IROD         50.34
06-Mar-95         27                D-Area Oil SB           IROD           2.7
13-Apr-95          8                  F-Area GW             IROD      Unknown
13-Apr-95          9                  H-Area GW             IROD          58.3
11-Sep-95         12                 M-Area West             ROD          9.66    No action ROD
01-Mar-96         32                   ORWBG                IROD         76.88
18-Jun-96         18               Burma Road RP             ROD          6.49    No action ROD
27-Mar-97         13             Silverton Road Unit         ROD          2.67    IC/GW monitoring
27-Mar-97         15                 D-Area BRP              ROD         11.82    IC/GW monitoring
27-Mar-97          4               Gunsite 720 RP            ROD             0    No action ROD
27-Mar-97         45               Grace Road Site           ROD             0    No action ROD
27-Mar-97          5            Gunsite 113 A-Road           ROD             0    No action ROD
27-Mar-97         14                  F-Area BRP             ROD         13.98    IC only
14-May-97         16                Old F-Area SB            ROD         43.18
14-May-97         11             Central Shops BRP           ROD          0.43    No action ROD
30-Sep-97         17         L-Area Acid/Caustic Basin/      ROD         59.62
                            L-Area Oil & Chemical Basin
23-Mar-98         20                K-Area BPOP              ROD             21   IC only
26-Jun-98         51               Motor Shops SB            ROD           9.36   No action ROD
04-Aug-98         10            Fire Dept HT Facility        ROD           2.64   No action ROD
04-Sep-98         23                  F-Area RB              ROD           7.47
15-Sep-98 1/      67                D-Area CPBR              ROD          17.94   No action ROD
15-Sep-98 1/      41                 P-Area CPBR             ROD          17.94   No action ROD
15-Sep-98 1/      54                 F-Area CPBR             ROD          17.94   No action ROD
15-Sep-98 1/      42                C-Area CPBR              ROD          17.94   No action ROD
15-Sep-98 1/      52                K-Area CPBR              ROD          17.94   No action ROD
19-Oct-98         27                D-Area Oil SB            ROD            2.7   No action ROD
29-Dec-98         31                 C-Area BRP             IROD          17.94
20-May-99         57               Ford Bldg Waste           ROD           2.96   No action ROD
28-Sep-99         24                   CMP Pits             IROD          33.55
15-Mar-00         47                    SRL SB               ROD           21.9
01-Aug-00         73             Georgia Fields Site         ROD           1.08   No action ROD
03-Aug-00         19                 A-Area BRP             IROD          31.89
31-Aug-00 2/      39                 P-Area BPOP             ROD             21   IC/soil. GW/no action
31-Aug-00 2/      26                 L-Area BPOP             ROD             21   IC/soil. GW/no action
31-Aug-00         60              C-Area Reactor SB          ROD          26.88
07-Dec-00         28       Misc Chemical Basin/Metals BP    IROD           4.26
22-Jun-01         40               K-Area BRP/RP             ROD          10.86


                                                                             Report No. 2002-P-00014
                                                     39
14-Sep-01              32    ORWBG (Solvent Tanks)            IROD   76.88
Footnotes:

1/ One ROD issued on 09/15/98 for five operable units.
2/ One ROD issued on 08/31/00 for two operable units.



Abbreviations:

BPOP          Bingham Pump Outage Pit
BRP           Burning/Rubble Pit
CPBR          Coal Pile Burning Runoff Basin
IC            Institutional Controls
HWMF          Hazardous Waste Management Facility
MWMF          Mixed Waste Management Facility
ORWBG         Old Radioactive Waste Burial Ground
RP            Rubble Pile
SB            Seepage Basin




                                                                        Report No. 2002-P-00014
                                                         40
                                                                                    Appendix 4

                                 Agency Response




MEMORANDUM

SUBJECT:       EPA Region 4 Responses to EPA Office of Inspector General
               Draft Report
               Federal Facility Cleanups: Improvement Needed
               In EPA Oversight of Cleanup Actions at the
               Savannah River Nuclear Facility
               Assignment No. 2001-0001522

FROM:          J. I. Palmer, Jr.
               Regional Administrator
               Region 4

TO:            John A. Price
               Project Manager
               EPA OIG

        This memorandum provides EPA Region 4's responses to recommendations presented in
the EPA’s Office of Inspector General (OIG) evaluation of the EPA Region 4 Oversight of
Department of Energy Cleanup Activities at the Savannah River Site. It is my understanding that
the draft report reviewed by my staff is subject to revision by OIG and, therefore, does not
represent the final position of the OIG on the subjects reported.

         In accordance with EPA Order 2750, EPA Region 4 is providing these comments to you
within 30 days of the draft report date. These comments address the factual accuracy of the draft
report, the policy implications of the recommendations, and plans for taking corrective action as
recommended. EPA Region 4 has consulted with the EPA Office of Solid Waste and Emergency
Response, Federal Facilities Restoration and Reuse Office, and the EPA Office of Enforcement
and Compliance, Federal Facilities Enforcement Office, in preparing these comments. At this
time, EPA Region 4 plans to implement corrective actions, as acknowledged in our individual
responses, by September 30, 2003. Please feel free to contact Jon Johnston, Federal Facilities
Branch Chief, at 404/562-8527 or at johnston.jon@epa.gov regarding any questions you may
have regarding EPA Region 4's responses.

                                                                         Report No. 2002-P-00014
                                               41
                                                2

OIG RECOMMENDATIONS AND EPA RESPONSES

2-1.   Evaluate potential benefits of using the SRS primary document protocols and core team
       process for oversight of cleanups at other federal facilities.

        We agree, and in fact, EPA Region 4 Federal Facilities Branch (FFB) has previously
implemented a similar core team approach for the Region’s Base Realignment and Closure
(BRAC) and active DOD bases and facilities, which was the basis from which the SRS core team
process was derived. These management alliances, initially formed in 1994 in the State of Florida,
consist of facility (project) teams, state specific management teams and a regional program
management team. Additionally, in June 2002, Region 4 signed an agreement with DOE and
Tennessee Department of Environment and Conservation (TDEC) executives to develop
streamlining processes that, in part, includes the implementation of this process at DOE’s Oak
Ridge Reservation (ORR).

3-1.   Require that DOE SRS develop a work planning process that ranks and schedules sites for
       cleanup based on a priority system that is clear and easily understood by all stakeholders
       and provides the greatest risk reduction.

        EPA will work directly with DOE SRS and the South Carolina Department of Health and
Environmental Control (SCDHEC) to improve the clarity of the existing work planning process to
the extent possible in absence of a national standard method for risk-based prioritization.

3-2.   While PREScore continues to be the process for prioritizing cleanup actions, evaluate the
       use of PREScore by DOE SRS staff to ensure that sites have been properly ranked as to
       relative risk to human health and the environment, and require that the rankings be
       considered in annual and future work plans.

        EPA Region 4 will evaluate the use of PREScore and will require that the rankings be
considered in annual and future work plans. Based on existing work planning and evaluation
protocols, it is anticipated that the PREScore process may be formally replaced with an alternative
method. EPA will ensure that the alternative method will properly rank sites relative to human
health and the environment.

3-3.   Establish Regional oversight procedures that ensure SRS sites are ranked and cleanup
       projects are planned in compliance with the agreed upon work prioritization methodology.

       EPA Region 4 will review and update oversight procedures to ensure sites are ranked and
cleanup projects are planned in compliance with the agreed upon methodology.




                                                                          Report No. 2002-P-00014
                                                42
                                                 3

3-4.   Require DOE to obtain input from all stakeholders on the scheduling of sites for cleanups,
       the methodology used for prioritizing cleanup activities, and how the methodology relates
       to site risks.

        In cooperation with EPA and SCDHEC, DOE SRS has an extensive stakeholder (public)
participation program in place based on the national consensus recommendations of the April
1996 Final Report of the Federal Facilities Environmental Restoration Dialogue Committee.
DOE SRS works diligently to inform and obtain input from as many stakeholders as possible on
the scheduling of sites for cleanups, the methodology used for prioritizing cleanup activities, and
how the methodology relates to site risks. EPA Region 4 will discuss with DOE SRS and
SCDHEC the possibilities for improvement in this area.

4-1.   Evaluate the workload analyses prepared for the SRS and other DOE FFAs to determine
       the number of Remedial Project Managers needed to effectively oversee these agreements
       and obtain and/or allocate resources necessary to properly staff and support the oversight
       of these FFAs.

         EPA Region 4 Federal Facilities Branch, in consultation with the EPA HQ Federal
Facilities Restoration and Reuse Office, has evaluated the current and planned workload for the
SRS, other DOE, and DOD facilities to determine the number of Remedial Project Managers
needed to effectively oversee these agreements. FFRRO’s analysis is that the Branch is estimated
to be six FTE below the number of RPMs needed for effective oversight of DOE facilities in the
Region. The Branch has already deferred facility oversight to states for eleven major DOD
facilities formerly overseen by FFB, and reassigned staff from DOD to DOE oversight to the
maximum extent possible. The Waste Management Division continues to review its priorities and
available work force to determine if staff need to be and are available to be reassigned. The
Region will diligently work to obtain and/or allocate resources necessary to properly staff and
support the Region’s oversight responsibilities.

4-2.   If resources cannot be provided to ensure effective oversight, evaluate whether the
       deficient staffing and related oversight should be reported as a material management
       weakness in the annual Federal Managers’ Financial Integrity Act report.

        EPA Region 4 will ensure that if resources cannot be provided to ensure effective
oversight, the Region in coordination with EPA national program offices, will evaluate whether
the deficient staffing and related oversight should be reported as a material management weakness
in the annual Federal Managers’ Financial Integrity Act report.

5-1.   Require DOE SRS to perform five-year reviews for RCRA corrective actions that are also
       included in CERCLA RODs.




                                                                           Report No. 2002-P-00014
                                                 43
                                                 4

        EPA Region 4 will require DOE SRS to perform five-year reviews for RCRA corrective
actions that are also included in CERCLA RODs

5-2.   Establish procedures to ensure that SRS five-year review reports are properly reviewed by
       appropriate Region 4 personnel and concurrence or nonconcurrence is provided for each
       report.

       EPA Region 4 will establish procedures to ensure that SRS five-year review reports are
properly reviewed by appropriate Region 4 personnel and concurrence or nonconcurrence is
provided for each report.

5-3.   Negotiate modifications to the SRS FFA to provide that:

       P       DOE perform the five-year reviews of remedial actions at SRS and that EPA will
               review the DOE five-year review reports and provide concurrence or
               nonconcurrence as currently required in EPA guidance.

       P       Five-year review reports and site evaluations are primary documents subject to the
               FFA dispute resolution and enforcement procedures.

        EPA Region 4 will initiate negotiations to modify the SRS FFA to provide that five-year
reviews of remedial actions at SRS will be performed by DOE, and that EPA will provide the
concurrence or nonconcurrence as currently required in the EPA guidance. Further, EPA
Region 4, will propose FFA modifications making the five-year review report a primary document
subject to the FFA dispute resolution and enforcement process. The Region, in consultation with
the Federal Facility Enforcement Office, will evaluate whether or not site evaluations should be
primary documents subject to the FFA dispute resolution and enforcement process. Historically,
site evaluations have been used as an effective method to quickly evaluate, screen, and rank sites,
according to potential and/or actual risk, and establish the need to continue further remedial
response actions. DOE SRS, in response to concerns raised by the region and the State of South
Carolina, submitted in August 2002, a draft Site Evaluation Protocol that will provide an
agreement on consistent methods for conducting site evaluations and provide for EPA’s review
and approval of the Site Evaluation Reports.

6-1.   Obtain DOE cost estimates for long-term response actions and final CERCLA cleanup at
       SRS to determine whether the current funding level is sufficient to (1) maintain the current
       level of remedial cleanup activities and (2) provide adequate protection to human health
       and the environment within a reasonable time frame. If not, negotiate an adjustment in the
       funding level with DOE to ensure that, at a minimum, the current annual level of remedial
       actions are maintained.




                                                                          Report No. 2002-P-00014
                                                44
                                                5

         EPA Region 4 receives DOE cost estimates on an annual basis for long-term response
actions and final CERCLA cleanups at SRS and its other DOE sites. The existing terms of the
FFAs, agreed to by the Region, the Office of Enforcement and Compliance Assistance (OECA),
and DOE’s national program office, requires that DOE and EPA agree on planned actions and
budget for the current fiscal year, the subsequent two fiscal years, and more general planning
information (including budget) for the remaining years of cleanup work. The Region has, and will
continue to ensure that adequate protection of human health and the environment can be met
within the plan and scope of the FFAs. This approach is outlined in the Federal Facilities
Environmental Restoration Dialogue Committee Report as noted in the EPA OIG Draft Report.
The Region has, and will continue to negotiate for an adequate funding level with DOE to ensure
that, at a minimum, the current annual level of response actions are maintained consistent with
nationally agreed upon FFA budget and funding language. Additionally, as part of DOE’s Top to
Bottom Review initiative, EPA and the State of South Carolina have signed a letter of intent with
DOE to accelerate cleanup, making additional FY 03 cleanup funding available.




                                                                        Report No. 2002-P-00014
                                               45
     Report No. 2002-P-00014
46
                                                                              Appendix 5

                                  Distribution



EPA Headquarters Offices

     Assistant Administrator for Solid Waste and Emergency Response
     Assistant Administrator for Enforcement and Compliance Assurance
     Director, Federal Facilities Restoration and Reuse Office
     Director, Federal Facilities Enforcement Office
     Comptroller (2731A)
     Agency Followup Official (2710A)
     Agency Followup Coordinator (2724A)
     Associate Administrator for Congressional and Intergovernmental Affairs (1301A)
     Director, Office of Regional Operations (1108A)


EPA Region 4

     Regional Administrator
     Director, Waste Management Division
     Chief, Federal Facilities Branch
     Audit Followup Coordinator/Liaison


EPA Office of Inspector General

     Inspector General (2410)




                                                                    Report No. 2002-P-00014
                                           47
